Audit Report



Return
    to the USDOJ/OIG Home Page




No Suspect Casework DNA Backlog Reduction Program Grant Awarded to the State of Ohio Bureau of Criminal Identification and InvestigationLondon, Ohio

Report No. GR-60-04-005


March 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the No Suspect Casework DNA Backlog Reduction grant awarded to the Ohio Bureau of Criminal Identification and Investigation (BCI&I) by the U.S. Department of Justice, Office of Justice Programs (OJP), National Institute of Justice (NIJ). The purpose of this grant is to reduce the number of untested no suspect cases and effectively use the Combined DNA Index System (CODIS) to solve no suspect crimes having DNA evidence. BCI&I was awarded a total of $2,254,088 to analyze more than 2,000 no suspect cases, to upload the resulting profiles to CODIS, and to encourage police to identify and submit no suspect cases for testing.
We tested the BCI&I's accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.
Our audit revealed that the BCI&I charged unallowable costs to the grant, and did not have proper documentation to support expenditures. Additionally, required reports were not always submitted timely and were not always accurate. We also found that the grantee received drawdowns of grant funds in excess of its immediate disbursement requirements. As a result of the deficiencies listed below, we question $106,755 or approximately 5 percent ($106,755/$2,254,088) of the total grant funds awarded.1 Specifically we found:

Unallowable direct costs totaling $23,648 for the purchase of buccal swabs were charged to the grant.


Documentation was not adequate to support direct costs totaling $83,107 that were charged to the grant.


Twenty transactions, totaling $501,670 were misclassified in the grantee's general ledger, resulting in costs being allocated to incorrect budget categories.


Financial Status Reports were not always accurate and were not always submitted timely, ranging from 5 to 19 days late.


The BCI&I received drawdowns of grant funds in excess of its immediate disbursement requirements.

These items are discussed in detail in the Findings and Recommendations section of this report. Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.